%

Proof of Service
Rule (29.5)

Attorney General
Office of the U.S. Attorney General
Main Justice Building
lOst and Constitution Ave NW
Washington, DC 20530
Department of Army
Office of the J.A.G.
1777 North Kent Street, 10th Floor
Rosslyn, VA 22209-2194

I Richard J. Ramsey swears under § 28 USC 1746 that I caused a copy of this petition to be
mailed to the named above parties of this unit, by placing a copy in the U.S. mail to the last
know address of the above defenders.
$£(A\

£

Certificate of Compliance

Richard J. Ramsey
v.
United States of America

As required by Supreme Court Rule 33.1 (h), I certify that the petition for habeas corpus contains
12Q0 words, excluding the parts of the petition that are exempted by Supreme Court Rule 33.1
(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on October 17,2020.

i#♦

